<html>
<title> - PUBLIC INTELLECTUALS IN CHINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




                     PUBLIC INTELLECTUALS IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-180                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



Senate                                     House

CHUCK HAGEL, Nebraska, Chairman      MEMBERS TO BE APPOINTED
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  STEPHEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Goldman, Merle, professor emerita of Chinese history, Boston 
  University and executive committee member, Fairbank Center for 
  East Asia Research, Harvard University, Cambridge, MA..........     2
Link, Perry, professor of Chinese language and literature, 
  Princeton, University, Princeton, NJ...........................     4
Hu, Ping, chief editor, Beijing Spring, board member, Human 
  Rights in China, and a regular commentator for Radio Free Asia, 
  New York, NY...................................................     8

                                APPENDIX
                          Prepared Statements

Goldman, Merle...................................................    24
Hu, Ping.........................................................    27

 
                     PUBLIC INTELLECTUALS IN CHINA

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:05 
a.m., in room 385, Russell Senate Office Building, John Foarde 
(staff director) presiding.
    Also present: Susan Weld, general counsel; Carl Minzner, 
senior counsel; Adam Bobrow, senior counsel; Katherine Kaup, 
senior advisor; Keith Hand, senior counsel; and William Farris, 
senior specialist.
    Also present: Michael Yan, U.S. Department of State, 
interpreter.
    Mr. Foarde. Good morning. Welcome, on behalf of the Members 
of the Congressional-Executive Commission on China, to this 
issues roundtable.
    I wanted to bring to everyone's attention that the 
statements of our panelists this morning will be up on the 
Commission's Web site, which is www.cecc.gov, and that you 
should routinely check the Web site for witness statements for 
our issues roundtables. The full transcript of the proceedings 
will be there in a few weeks, as well as copies of previous 
roundtables and hearing transcripts.
    In addition to those items, we have on the Web site news, 
information and analysis about human rights and the development 
of the rule of law in China. The part of the Web site known as 
the ``Virtual Academy,'' I recommend to you because it is 
becoming an increasingly popular part of our site.
    This morning we are gathered to hear from three quite 
distinguished panelists about the current crackdown on Chinese 
intellectuals, and its implications. Throughout the history of 
modern China, scholars and intellectuals have helped to guide 
China's 
political and social development. They have served as voices of 
introspection, reform, and in some cases dissent, against the 
excesses of China's leaders. Some observers had expressed hope 
that the succession of Hu Jintao and Wen Jiabao to the top 
leadership posts in the Party and the Chinese state might usher 
in a new period of openness for Chinese intellectuals. In 
recent months, however, government intimidation and harassment 
of public intellectuals appears to have intensified.
    In September 2004, the publication Southern People's 
Weekly, a publication in the relatively progressive Southern 
Daily group, published a cover story entitled, ``Fifty Public 
Intellectuals Who Influenced China.'' Later that fall, official 
newspapers published a series of editorials critical of the 
concept of public intellectuals. Since then, numerous prominent 
intellectuals, many of whom have published writings critical of 
the Chinese government, have been detained, demoted, or 
blacklisted from publishing.
    To help us understand these developments, we have three 
enormously distinguished panelists this morning. I will 
introduce each before he or she speaks, but I wanted to remind 
our panelists and the audience about the format of our 
roundtables.
    Each of the panelists will be asked to make a 10-minute 
opening presentation. After about eight minutes, I will let you 
know that you have two minutes remaining. After all panelists 
have spoken, we will go to a question and answer session. Each 
of our staff panel here will have about five minutes each to 
ask a question and hear the answer, and we will continue to go 
around in questioning until either the subject matter is 
exhausted, which hardly seems possible, or 11:30 arrives, 
whichever comes first.
    So it is my great pleasure to introduce our first panelist, 
Professor Merle Goldman, who is Professor Emerita of Chinese 
History at Boston University, and executive committee member of 
the Fairbank Center for East Asia Research at Harvard 
University. Professor Goldman is the author of numerous books 
and articles on Chinese intellectuals and their role in modern 
China, including ``China's Intellectuals: Advise and Dissent,'' 
from 1981; ``Sowing the Seeds of Democracy in China: Political 
Reform in the Deng Xiaoping Decade,'' from 1994, and she is 
currently completing a new book entitled, ``From Comrade to 
Citizen: The Struggle for Political Rights in China.'' In 
addition to her teaching duties and scholarship, Professor 
Goldman serves as an adjunct professor at the Foreign Service 
Institute of the U.S. Department of State here in Washington. I 
had the enormous pleasure, many years ago, of being her student 
there.
    Welcome. Over to you for your presentation.

   STATEMENT OF MERLE GOLDMAN, PROFESSOR EMERITA OF CHINESE 
  HISTORY, BOSTON UNIVERSITY AND EXECUTIVE COMMITTEE MEMBER, 
  FAIRBANK CENTER FOR EAST ASIA RESEARCH, HARVARD UNIVERSITY, 
                         CAMBRIDGE, MA

    Ms. Goldman. In the short paper I wrote, I said that 
``public intellectuals'' are not just a modern phenomenon in 
China. They actually existed back in the Confucian era. It was 
the responsibility of Confucian literati to criticize the 
leaders if they diverged from Confucian morals or if they were 
engaged in unjust kinds of practices. As I see it, this is a 
tradition that is not unique to Western civilization. This is 
also part of Chinese civilization. It was only under Mao Zedong 
that the public intellectuals were silenced and not allowed to 
speak.
    In the post-Mao era, there is a reemergence of public 
intellectuals, but there has been a change from the traditional 
role of public intellectuals. In the 1980s, most of the public 
intellectuals were people who became part of the reform 
process; they were members of the intellectual networks of 
reform leaders, such as Hu Yaobang and Zhao Ziyang. So they 
were part of the establishment.
    After June 4, 1989, however, they lost their positions. 
Some of them were imprisoned; others were forced to find work 
as workers or small businessmen. Therefore, in the 1990s, 
something new begins to happen. Public intellectuals emerge who 
are not part of an official establishment and do not have 
political mentors who can protect them. So the 1990s sees the 
emergence, I believe, of independent public intellectuals. Some 
of them had participated in the Democracy Wall movement in 1978 
and 1979. Some of them were the participants in the 1989 
Tiananmen movement and were put in prison. When they were 
released, they went back to being public intellectuals. Since 
they were no longer members of the establishment, they became 
freelancers.
    Something very new was happening here. They had access to 
publishing through private contractors. They were able to get 
their ideas across through the foreign press because the 
Chinese were opening to the outside world so that they could 
give interviews on Voice of America, Radio Free Asia, the BBC, 
and in Hong Kong that would be broadcast back to China. They 
also publicized their ideas on the Internet. These were all 
areas in which they were able to express themselves and get 
their ideas before the public.
    By the late 1990s, a new phenomenon developed: the effort 
to establish an opposition political party, the China Democracy 
Party. This party is the first time there is a joining together 
of intellectuals with workers and small business people in an 
unofficial political organization. The party included veterans 
of Democracy Wall and the 1989 Tiananmen movements; it also 
included workers who were dissatisfied with increasing 
exploitative working conditions. Among the members of the 
opposition party were small business people who were once 
public intellectuals. They had been thrown out of the 
establishment, and then turned to the market to make a living. 
It is not the large entrepreneurs or the middle entrepreneurs, 
but the small entrepreneurs, who were once intellectuals, who 
helped finance the effort to build an opposition party.
    So what you see developing are freelance intellectuals, in 
combination with other social groups--workers and small 
business people who help to establish an opposition party. 
That, to me, is something very new in the People's Republic of 
China. The question I have always had is what role can the 
United States, or human rights activists outside of China, play 
in helping these people?
    I mean, the United States cannot be right there on the 
scene as it is today in Iraq. We can only be a catalyst. But I 
think there are ways in which we can help and I am sure other 
speakers will talk about that as well. Because China, unlike 
under Mao, really does care what the outside world thinks about 
it and wants to become a respected member of the international 
community, it is open to outside pressure. I saw that when I 
was a member of the U.S. delegation to the U.N. Commission on 
Human Rights during the Clinton era. At Geneva I saw how much 
effort the Chinese put in to making sure they were not 
criticized in that forum.
    My belief is that the threat of criticism plays a great 
role in influencing China's actions on human rights. One area 
in which I think we can make a specific difference is on the 
issue of having the National People's Congress ratify the U.N. 
Covenant on Civil and Political Rights. The Chinese signed onto 
the covenant in 1998, but they say it is not operable until it 
is ratified by the National People's Congress. We can bring 
pressure on the National People's Congress to ratify the 
Covenant.
    I think the very fact that the Chinese have already 
released political prisoners early, before their term is up, is 
an indication that they seek to stop any kind of criticism of 
them at the annual meeting of the U.N. Commission on Human 
Rights. Even though China's having signed the Covenant on Civil 
and Political Rights may not affect what the leadership does, 
it does affect the people who are demanding human rights in 
China. We saw the same thing in the former Soviet Union and 
Eastern Europe. The Helsinki Accords played a great role in 
activating the dissidents and the human rights activists, 
though it did not play much of a role on the Soviet leaders 
until Gorbachev. Nevertheless, it did play a role in bringing 
pressure from below.
    So, I guess I would like to conclude with saying that I 
believe that the way we are going to see change on the issue of 
human rights in China is through pressure from below, coming 
from intellectuals, workers, small business people, plus 
pressure from outside. Hopefully someday there will be a leader 
in China who will say, ``All right, we are moving toward some 
kind of democracy here, let us recognize it,'' as occurred in 
Taiwan in the late 1980s.
    So, on that optimistic note, I will conclude.
    [The prepared statement of Ms. Merle Goldman appears in the 
appendix.]
    Mr. Foarde. Thank you very much for giving us a good start 
with a lot of rich issues to explore during our question and 
answer session.
    I would now go on to recognize Professor Perry Link, 
Professor of Chinese Language and Literature at Princeton 
University. Professor Link has been a distinguished scholar for 
many years, specializing in 20th century Chinese literature. He 
has written widely on Chinese literature and culture. His 
publications include: ``Evening Chats in Beijing,'' (1993), a 
discussion of modern China as viewed through the eyes of 
Chinese intellectuals; and ``The Uses of Literature: Life in 
the Socialist Chinese Literary System,'' in 2000.
    Professor Link, of course, also co-edited the ``Tiananmen 
Papers,'' which provided an inside account of key leadership 
deliberations over the Tiananmen democracy protests in 1989. In 
addition to this teaching duties at Princeton, Perry Link 
serves on the Board of Advisors of Beijing Spring, a Chinese 
language magazine dedicated to the promotion of human rights, 
democracy, and social justice in China.
    Perry Link, welcome. Over to you for your comments.

  STATEMENT OF PERRY LINK, PROFESSOR OF CHINESE LANGUAGE AND 
        LITERATURE, PRINCETON UNIVERSITY, PRINCETON, NJ

    Mr. Link. Thank you. I want to try to make three points in 
my 10 minutes.
    One is that public intellectuals' willingness to speak out 
has declined, in my view, over the last 15 years. You just 
heard about my book, ``Evening Chats in Beijing,'' which makes 
a lot of what Merle just mentioned about the traditional role 
of the Chinese intellectual to ``take responsibility for all 
under heaven,'' (yi tianxia wei ji ren) and to speak truth to 
power.
    I regret to say that I think there has been a considerable 
decline in that spirit, partly because the Communist Party has 
been successful in co-opting intellectuals by using higher 
salaries, better housing, higher status, access to travel 
abroad, more publishing freedom for writers who can write just 
about whatever they want to now--as long as you do not cross 
the government--and so on.
    The second main point I would like to make, and here I will 
take a little more time, is that, despite my pessimistic first 
note, I think that public intellectuals do remain, and are, 
important. They are fewer than before, and fall into several 
kinds of fairly disparate spheres, which I will call (1) 
Internet essayists, (2) journalists, (3) muckraking novelists, 
(4) special cause activists, and (5) lawyers.
    1. Internet essayists. We know about the recent detentions 
of Yu Jie and Liu Xiaobo. People like this are important 
because they provide a critical voice. But if we ask what their 
impact is, we need to divide the question between an 
international, external impact and the internal impact inside 
China.
    Inside China, the impact is not as great as one would hope. 
These writers are banned from print publication. They do 
publish on the Internet, and there are, of course, about 90 
million Internet users in China. But the Internet users are 
blocked, usually successfully, by 50,000 or more Internet 
police. The actual readers of these Internet essayists are 
primarily the overseas diaspora. Inside China, only a small 
group of sophisticated computer users who can get around the 
government's firewall get access to these writings.
    It is worth asking why the ruling authorities allow these 
dissident voices onto the Internet at all. They could easily 
detain them and keep them off the Internet if they wanted. One 
answer, of course, is that there would be an international 
outcry if such famous voices were squelched. But an even more 
important factor, in my view--if I imagine myself in the place 
of the authorities--is that outside China it enhances the 
government's image to be able to show that people are 
publishing what looks like liberal thought from inside China. 
Defenders of the regime--at the U.N. Human Rights meetings in 
Geneva, for example--can point to them and say, ``Look, Liu 
Xiaobo is publishing pretty wild stuff, so is China's media 
control not loosening up? '' But this induces a fundamental 
misperception, because most media control--the bottom of the 
iceberg--is not loosening up at all.
    2. Journalists. The journalist He Qinglian has written a 
couple of very important books in the last five years: 
``China's Quagmire'' (Zhongguo de xianjing) and ``How the 
Chinese Government Controls the Media'' (Zhongguo zhengfu ruhe 
kongzhi meiti). She, of course, is in exile from China now. But 
inside China--and I don't have time to go into detail here--
Liao Yiwu, with his ``Interviews from the Bottom of Chinese 
Society'' (Zhongguo diceng fangtanlu), Xiao Shu, with his 
``Harbingers of History'' (Lishi de xiansheng), Chen Guidi and 
Wu Chuntao, with their ``Investigation of the Chinese 
Peasantry'' (Zhongguo nongmin diaocha) have all written very 
important books. Some in this group are sociologists, like Cao 
Jinqing, with his ``China Along the Yellow River'' (Huanghebian 
de Zhongguo). These are all important works that remind people 
that there are basic truths beneath the fluff and the rosy 
surfaces that get projected not only by the Communist Party but 
by rosy-eyed Westerners.
    It is worth noting, though, that there are fewer of these 
books now than there were even a few years ago under Jiang 
Zemin. I am not enthusiastic about making Jiang Zemin look 
good, yet this statement is true.
    3. Muckraking novelists. Here again, a professor could go 
on for hours, but let me be brief. In the 1990s, long novels by 
Lu Tianming, Chen Fang, Zhang Ping, Wang Yuewen, Liu Ping, and 
others have exposed corruption in China. These are partly 
entertainment, to be sure. There is murder, sex, detectives, 
and so on. But they are more than that. They expose wrongdoing, 
and thrive on a strong public interest in watching wrongdoing 
get exposed and allow readers to let off steam vicariously.
    Things can be said in this fiction that are remarkably 
bold, so long as they come out of the mouths of villains. A 
villain can say the Communist Party is done for, that it is not 
going to last even a couple of more years--and so long as the 
character is a villain, the novelist can get away with the 
statement. When it reaches a reader, though, the reader can 
take it as he or she likes.
    4. Special case advocates. Here I mean people like Ding 
Zilin and her Tiananmen Mothers Movement, or the very important 
movement for AIDS activism led by Dr. Gao Yaojie, Hu Jia, Wan 
Yanhai, and others. Efforts like this do a lot of good. Here 
intellectuals engage people ``on the ground,'' making a 
difference where, in the American cliche, ``the rubber hits the 
road.''
    5. Lawyers. I want to spend a little time on this topic 
because I think this is becoming a very interesting and 
important kind of public intellectual. Beginning with Zhang 
Sizhi, who defended Wang Juntao, to Mo Shaoping, who defended 
several dissidents, to Zheng Enchong, imprisoned for his 
defense work, to Guo Guoting, who defends journalists and Falun 
Gong believers, to Pu Zhiqiang, who is defending the authors of 
``Investigation of the Chinese Peasantry''--and several 
others--quite a cadre of very useful legal ``public 
intellectuals'' seems to be emerging.
    Let me read a few sentences from Vaclav Havel, ``The Power 
of the Powerless,'' that tell why even futile legal activity 
can be important under Communist rule. Havel writes--of 
Communist Czechoslovakia--``Because the system cannot do 
without the law, because it is hopelessly tied down by the 
necessity of pretending the laws are observed, it is compelled 
to react in some way to these kinds of appeals that lawyers can 
make. Demanding that the laws be upheld is, thus, an act of 
living within the truth.''
    At a minimum, appeal to the law in China today has this 
same function of exposure of hypocrisy. Increasingly, though, 
it has been doing more than that. Lawyers are actually getting 
some very good things done these days, and for a couple of very 
interesting reasons.
    Twenty years ago, the ``work unit'' (gongzuo danwei) system 
still held sway in Chinese cities, and virtually all social 
conflicts were settled by work unit leaders. Today the power 
and scope of work units both are greatly reduced, but of course 
there are still conflicts in society, and they still need to be 
settled somehow, so courts and lawyers have become much more 
important even if the leaders had not planned that this happen. 
The increased role for lawyers makes space for those among them 
who want to try to nudge political rights forward.
    Another interesting aspect of the role of lawyers is that 
they by nature abstract the question of rights. Traditionally 
in Chinese politics, and especially in Communist Chinese 
politics, battles were conceived as having only two sides: I'm 
right and you're wrong; the Party is right and Falun Gong is 
wrong, etc. There was no in-between position. But a lawyer, 
now, can distance himself from a ``wrong'' point of view but 
still defend the person who holds it. He can defend Falun Gong 
without being vulnerable to the charge of believing Falun Gong. 
Hence his position serves the function of ``abstracting'' the 
concept of rights above the question of substantive right-or-
wrong. This is a first step to universalizing rights. The 
Communist Party is not used to handling this kind of problem. 
Rulers may come to realize that lawyers are undermining 
authoritarian power, but they will not easily be able to crack 
down on the trend, because, as Havel points out, their 
legitimacy depends on the pretense that rule of law is 
observed.
    I want to turn to my third main point now, but make it only 
briefly because of time constraints. It is this: if there is 
hope for political reform in China, or--dare we say it--regime 
change, I am not sure it will come from intellectuals. I am not 
as optimistic about them as I was 15 years ago. I think the 
impetus for change is more likely to come from the less 
educated classes.
    The West tends to underestimate the sea of change in 
popular Chinese thinking that grew out of the Cultural 
Revolution. Although these results were hardly what Mao Zedong 
planned, the Cultural Revolution years did revolutionize the 
way a generation of people think about their rights and their 
ability to protest.
    The distinguished writer Liu Binyan made a very interesting 
point to me the other day. He asked: why was the suicide rate 
in China in the 1990s so much higher than it was in the 1940s? 
There certainly was much more money in society, generally, in 
the 1990s than the 1940s, yet more people killed themselves in 
the 1990s.
    He says that this was because in the 1940s, the poor and 
the destitute did not much expect that they should have respect 
or rights. But during the Cultural Revolution, with its 
combination of egalitarian ideology and social chaos, there 
grew a notion that ``I ought to get respect if I am a worker or 
farmer--and if I don't, there'd better be a good reason why 
not.'' But now, when you look around at society, there do not 
seem to be any fair reasons why the rich are rich and the poor 
are poor. It looks like corruption and 
unequal opportunity are the reasons. The ``losers'' feel 
insulted, humiliated, disgusted--hence the higher suicide rate.
    The other source from which change might come--Merle 
referred to this briefly a moment ago--is a move by a top 
leader. Frankly, I do not pin any hopes on Hu Jintao in this 
regard.
    The compiler of the Tiananmen Papers recently told me he 
does not think that top-inspired political reform can happen in 
China until about 2020, or at the very best maybe 2010. But to 
me it is significant that he still believes top-down change to 
be a possibility. A top leader could look at the situation and 
see the historic opportunity to be a world-class figure in 
Chinese history by ending the rickety, corrupt, and very un-
modern political system that still burdens the Chinese people 
today.
    Mr. Foarde. Thank you very much, Perry. Again, a rich 
presentation with many issues to go into during our question 
and answer session.
    It is now my privilege to introduce Mr. Hu Ping. Mr. Hu is 
chief editor of Beijing Spring. He has been the chief editor of 
this monthly Chinese-language magazine that is dedicated to the 
promotion of human rights, democracy, and social justice in 
China since 1993. He is also a board member of Human Rights in 
China, the respected NGO, and a regular commentator for Radio 
Free Asia. Mr. Hu received his master's degree in philosophy 
from Beijing University and studied at Harvard University. 
During the Democracy Wall movement of 1979 in Beijing, Mr. Hu 
published a long essay entitled, ``On Freedom of Speech.'' In 
1980, he was elected as a People's Delegate in China's first 
free local election, and he is also former chairman of the 
Chinese Alliance for Democracy.
    Mr. Hu will speak in the Chinese language and will be 
assisted this morning by our friend and colleague, Mr. Michael 
Yan, one of the premier interpreters and translators from the 
U.S. Department of State.
    Michael, welcome, and thank you for your help.
    Mr. Yan. Thank you, sir.
    Mr. Foarde. Mr. Hu.

   STATEMENT OF HU PING, CHIEF EDITOR, BEIJING SPRING, BOARD 
  MEMBER, HUMAN RIGHTS IN CHINA, NEW YORK, NY; INTERPRETED BY 
             MICHAEL YAN, U.S. DEPARTMENT OF STATE

    Mr. Hu. I would like to thank everybody for giving me this 
honor to be here today.
    Today I will be talking on three issues. The first is the 
fact that since Hu Jintao took office, the plight of the public 
intellectuals in China has not improved; in fact, it has 
worsened. As a matter of fact, the lack of improvement, in 
itself, is tantamount to worsening, because the same oppression 
becomes more and more onerous as time goes on, and the 
consequences of that oppression become more and more severe. 
Not long ago, the Hu Jintao regime unleashed a new crackdown on 
intellectual circles. This shows that Hu Jintao and his 
predecessor, Jiang Zemin, are cut from the same cloth.
    The Chinese Communist leaders are deeply cognizant of the 
fact that their political power is entirely based on the fear 
of the masses. Consequently, if they are to preserve their own 
rule, they must keep the people in fear. This means they cannot 
appear amicable and big-hearted in front of the masses. In 
their mind, if the people feel the authorities are amicable and 
big-hearted, they will dare to speak out, saying things they 
would never have dared otherwise. Then they would dare to speak 
out demands they would not have dared otherwise. If that 
happens, of course, the authorities would have to make more 
efforts to crack down. That is why, after Hu Jintao took 
office, he took a hard-line approach to everything, with a goal 
of consolidating the rule of his Party. That way he would nip 
it in the bud, and that way he really does not have to crack 
down on a bigger number of people. That is why many people 
outside of China are feeling disappointed by what Hu Jintao has 
done, but actually that is precisely what he wanted to achieve 
in the first place.
    After Hu Jintao took office, he reiterated time and time 
again his concerns for the disadvantaged groups. However, he 
absolutely does not permit the people to initiate any open 
collective actions or to stand up to defend their own rights, 
because they are really afraid of the possibility that the 
people would obtain the ability to engage in independent 
collective activities. Also, the Chinese authorities are well 
aware of the fact that the allocation of wealth in China is 
based on injustice, and all that allocation is illegitimate. In 
China, the poverty of the poor exists for different reasons. It 
is not the product of history. It is not the product of the 
market. It is the product of political power.
    As we can imagine, if the people do have their political 
power, do have their rights, they are not going to be satisfied 
with a tad more added to the unemployment, or a small 
additional subsidy for the poor. They will, first, demand that 
a group of people who use their power to enrich themselves turn 
over the property they plundered, and that, of course, will be 
a threat to the regime itself. That is why the so-called 
concern for the disadvantaged touted by the Hu Jintao regime, 
in reality, is no more than a desire to employ controlled 
oppression and to maintain continued squeezing.
    Second, I would like to talk about the control that the 
Chinese Communist regime has on the intellectuals in China. On 
the surface, it seems that the intellectuals in China are very 
active in today's politics. On the Internet, even in the 
official media, discussion of certain public issues is quite 
open, and even quite likely. Some dissidents express themselves 
without fear and nothing happens to them. They sit at home 
quite well. Nothing happens. However, I must bring to your 
attention the fact of a principle being implemented by 
authorities in China today, and that principle is that all 
people are not equal before the law.
    When the authorities handle issues related to expression 
and speech, there is no single standard measure used. The 
standards vary by person, by time, and by place. That is why we 
cannot draw the conclusion, based solely on the situation of a 
few well-known dissidents, that freedom of speech in China has 
expanded. Of course, the number of people who have been 
arrested and who have been detained is very high, and that puts 
China in first place in the world. However, this should not be 
the only yardstick with which we measure freedom of speech in 
China. Nations that arrest a smaller number of dissidents do 
not necessarily have more freedom of expression than those that 
arrest many.
    We know that traditional autocratic regimes use 
investigation and punishment after the act to control freedom 
of speech, whereas, the Communist Party in China takes a 
preventive approach before anything even happens.
    If we liken the traditional method of autocracy and its 
treatment of free expression to killing people or butchering 
children, then the Communist autocratic methods are not limited 
to killing people and slaughtering babies, but also includes 
abortion and contraception.
    Now, the effects of this oppression are not only more 
severe and far-reaching, they are also more insidious and more 
apt to fool people. On the surface, the yardstick used as a 
measure for the control of free speech by the authorities is 
broader than before, with the standards not only looser than 
those of the Mao era, but also even looser than those of the 
1980s. Now, there are many factors that resulted in this. One, 
with the June 4th massacre as the landmark, the Chinese 
Communist regime has lost the traditional support of belief. It 
has been transformed into a rule of naked violence. Violent 
rule results in people's passiveness and political apathy. It 
means widespread cynicism. Under these circumstances, the role 
that the intellectuals play is much, much smaller in today's 
China.
    Simply put, the government really does not care about your 
criticism any more. The attitude is, ``You yell about what you 
want, and I will do what I like, all the same; what can you do 
to me? '' I think Wang Shuo put it very well by saying, ``I'm a 
rogue, who should I fear?'' That means the authorities have 
become even more shameless.
    So that is why liberal intellectuals all over feel that 
their situation has worsened in these circumstances. These 
activities still hold on tenaciously among the people, but it 
is very difficult for them to develop any further.
    Third, I would like to talk about the fact that, contrary 
to the early hopes of many people, economic reforms and 
economic growth in China have not put China on a pathway to 
freedom and democracy. On the contrary, the reform and the 
economic growth have become the main reason the authorities use 
to claim to one-party rule and to deny freedom and democracy.
    From Li Peng and Jiang Zemin to Hu Jintao and Wen Jiabao, 
leaders have taken China's successful economic growth as their 
basis to justify the crackdown on June 4th as necessary and 
right. They use it to show that a one-party autocracy is 
necessary and right. In reality, China's privatization of the 
``China model'' or the ``China miracle,'' has not brought out 
democracy and freedom. They have thrown obstacles to developing 
democracy and freedom.
    If the truth can be told here, privatization in China was 
nothing more than officials using their power to misappropriate 
resources that originally belonged to all the people. This sort 
of privatization reduces the ``transaction cost'' to a minimum, 
making it far quicker and more effective than privatization 
accomplished with democratic participation. However, such 
reforms are bound to be of the type that can never be approved 
by the people. The blocks, the groups of people who profit 
immensely from all this, are those who are most in fear of 
democracy and most stoutly oppose it. This is because these 
officials know very well that if they open the door to freedom 
and democracy, they will not only lose their monopoly on 
political power, but also, very possibly, will be called out by 
the people on charges of economic corruption.
    I would like to close this by saying that in today's China, 
the Mao era is gone forever. Even the ruling class itself is 
not willing to go back to the days of Mao. Today's China must 
concern herself with something that seems even more old-
fashioned, but which could be an even more persistent type of 
oppression: that of rule by people who believe in no ``ism'' 
but wield enormous power, and are determined to use every means 
at their disposal to preserve it.
    Thank you.
    [The prepared statement of Mr. Hu appears in the appendix.]
    Mr. Foarde. Thank you, Mr. Hu, for, also, a very rich and 
deep presentation. We will be coming back to some of your 
themes in our question period.
    I would like to give our panelists a moment to rest their 
voices and gather their thoughts, and make a brief 
administrative announcement.
    The next CECC issues roundtable will be held next Monday, 
March 14, at 2 p.m. in room 2255 of the Rayburn House Office 
Building, over on the other side of the Capitol, entitled, 
``China's New Regulation on Religious Affairs: A Paradigm 
Shift?'' This roundtable will examine the Chinese government's 
new regulation on religion, which became effective on March 1.
    We have three quite distinguished panelists for that 
roundtable as well: Dr. Carol Lee Hamrin from George Mason 
University, here in the area; Professor Daniel Bays of the 
William Spoelhof Teacher-Scholar in History at Calvin College 
in Grand Rapids, MI; and Mickey Spiegel, senior researcher at 
Human Rights Watch/Asia in New York City. So we hope to see all 
of you on Monday afternoon at 2 p.m. in 2255 Rayburn.
    With that, let us go to our question and answer period. I 
will exercise the prerogative of the chair and address this 
question to all of our panelists.
    Given that you have given us an extremely sobering 
assessment of the condition of the public intellectual in 
China, and given the history of public intellectuals in China 
that you have limned for us since 1949, what would possess 
anyone in China to want to become one of the members of the 
four categories, Perry Link, that you traced in today's 
environment? What motivates people to do this? Anyone can 
begin.
    Mr. Link. Well, for some, idealism. I think that the 
traditional Confucian ideal of serving the good of society and 
thinking that that is a right thing to do still has life. It is 
somewhat in recess now, but it is too big and too strong to 
have died completely.
    To put another possibility on the table, though, it is 
sometimes hard to separate idealism from careerism in contexts 
like this. There can be a certain careerist benefit in making a 
name for oneself as a dissident intellectual. People 
occasionally make a splash in hopes of becoming well-known for 
having made the splash. But to view them as purely so motivated 
is usually too cynical. Often idealism and careerism are both 
there, mixed.
    Ms. Goldman. But besides that tradition, I think, also, 
Chinese are very much influenced by the West. The West does 
have a big influence through the Internet. The Internet is 
censored; there is no question about that. But they find all 
kinds of ways, as I find out when I interview these people, to 
get around the censorship. I am amazed of what they can do to 
get around the censorship. If they are blocked at one Web site, 
they go to another one, and so forth. So, they learn about the 
West and there is a great attraction to those interested in the 
free exchange of ideas.
    You are right. Even under Mao, there were intellectuals, 
like Liu Binyan, who spoke out. The difference was that under 
Mao they did it when he let them do it, as in the ``Hundred 
Flowers movement.'' Now they speak out and act politically 
whenever they want to.
    I would just like to add one other thing. I do not 
necessarily agree with Hu Ping. I believe that the move to the 
market and the move to the outside world has really made the 
political system less rigid. Let me put it this way. The 
oppression is less rigid; they have found ways to get around 
it. There is more freedom of speech, at least in private 
meetings and even in academic meetings. I am amazed, when I go 
to some academic meetings in China, at the kinds of things they 
say.
    What there is not, is more freedom of association. Any 
group that wants to join together for some kind of political 
purpose will quickly be repressed.
    But on the whole, among themselves, they can say almost 
anything--Perry has written about this very well. So, I am not 
as pessimistic as the others here.
    I do agree that the Chinese young people, students are less 
politically involved than in the 1980s. But they also want more 
freedom and more political participation.
    My two fellow panelists have said intellectuals are not 
going to play the political role they had in the past. In the 
last part of my forthcoming book, I deal with ordinary people 
demanding human rights, whether they are peasants or they are 
workers who are beginning to demand political rights. Usually, 
it is an intellectual among them who helps them articulate what 
they believe or helps them in what they are doing. So even if 
the intellectuals, as a group, are not going to play a role in 
political affairs, they will play a role, I believe, with other 
social classes. That is where I think they get their clout.
    Mr. Foarde. Useful. Thank you.
    Mr. Hu, do you have a comment?
    Mr. Hu. Now, that is a very interesting issue. A lot of 
times we find ourselves asking ourselves the same questions. 
``Why did we put ourselves in situations like that? Why did we 
speak out, saying things that the authorities did not want to 
hear? Why did we, as intellectuals, do that? ''
    In addition to the reasons that Professor Link and 
Professor Goldman have listed just now, there is another 
reason. That is, in recent years there is a bigger and bigger 
group of young people who do have some religious beliefs. They 
have to somehow find some sort of moral support to prop 
themselves up so that they can keep doing what they think is 
right, but not officiated by other people.
    Another fact I would like to draw everybody's attention to 
is that compared to the 1980s, or compared to even the 1990s, 
the role that intellectuals in today's China play is much more 
marginalized.
    Of course, there is another fact which is that in today's 
China, intellectuals have become really meek and docile. They 
know what to say, at what time, and they know what not to say 
under what circumstances. So when they do speak out, the 
outside world would be under the impression that these are 
daring people, they are speaking out as a matter of fact. These 
intellectuals who are speaking out are speaking within the 
dictates of what they can and cannot do.
    Mr. Foarde. Thank you all very much. A useful set of 
responses.
    These roundtables take a great deal of teamwork to 
organize, but there is always at least one person at the head 
of the organizational pyramid. I am happy today to recognize 
that person, my colleague, Keith Hand, who is a senior counsel 
with the Commission staff. Over to you for some questions, 
Keith.
    Mr. Hand. Thanks, John. Thanks to all of you for coming and 
for a fascinating set of presentations.
    I wanted to discuss a bit more deeply an issue that 
Professor Goldman just touched on, that is the relationship 
between intellectuals and the public at large. We have talked a 
lot about state repression and how the new regime is dealing 
with intellectuals. Has the public view of the role of 
intellectuals changed? Do intellectuals still hold a special 
place in the eyes of the public? If intellectuals were able to 
circumvent some of the state controls we have talked about 
today, would they be able to mobilize public opinion?
    Ms. Goldman. That is a good question. Here, I guess I agree 
with my colleagues on this. The intellectuals today do not have 
the kind of honorable role that they had in the Confucian era, 
or even in the Mao era. Today they are seen as part of the 
commercialization of Chinese society. They are out to get as 
much as they can; they are less interested in political issues. 
There is no question about that.
    Yet, I still think--and this gets back to the other 
question--there is a residual desire to play a political role 
and a residual respect for intellectuals. If someone has a 
little more education and they become part of some kind of a 
protest movement, they usually move to the fore. They usually 
are the ones who help organize it or help articulate what the 
participants want. So, whether it is workers or it is peasants, 
it is usually the one with a little more education who plays a 
leadership role and is able not only to mobilize, but also 
articulate what these views are.
    I would agree with my panelists here that the ordinary 
people are getting a sense of rights. You can see this all over 
China today. Last summer, I was in Xi'an and I saw huge posters 
in front of the Big Goose Pagoda. They were put up by peasants 
who were complaining about their land being taken away for 
modernization projects. But what arguments did they use? The 
posters said that their rights had been taken away. They said 
that they wanted back their land and wanted back their rights. 
In other words, they were not just acting to demand their 
rights. They are beginning to articulate those rights as well.
    Now, it is not clear whether the intellectuals have gotten 
to them with that concept or it is coming out of their own 
experience, it is probably both. So even though the 
intellectuals are seen as part of China's modern 
commercialization, I still think they play this residual role 
as public intellectuals.
    Mr. Link. Let me take another crack at what I tried to say 
about the groundswell of secular change during the last 50 
years in ordinary Chinese people's consciousness of their 
independence. I hesitate to use the word ``rights,'' because 
that almost crosses a borderline that is a little bit too 
modern and Western for what I mean. But just to try to put a 
nub on it, let's go back to the protest movement in 1989 when, 
of course, at Tiananmen Square there was lots of superficial 
representation of Western democratic influences. You will 
remember students bandying Lord Acton's famous phrase about 
absolute power corrupting absolutely. Dan Rather was at the 
square, Mikhail Gorbachev came, and so on. It was all called a 
Democracy Movement and seemed to spring from Western influence. 
In fact, though, the power of the movement came from the bottom 
up. The discontent and the demonstrations were not just in 
Western-influenced Beijing but all over China--as the Tiananmen 
Papers make clear. There was hardly a provincial capital that 
did not see major demonstrations, and many middle-sized cities 
had them as well. All this was not because Dan Rather was in 
the square in Beijing. It was because of discontent that came 
deep out of China's recent historical experience.
    Much of it originated in the Cultural Revolution years, 
when, along with all the hate and turmoil, people began to 
think, ``I am a person, I can stand up, I can argue back, I can 
criticize my leadership.'' Again: I do not believe that Mao 
foresaw the effects of what his movement was doing, but his 
movement unleashed the effects nonetheless. Then, when the 
unfairness of the 1980s became so obvious--when people saw the 
massive misappropriation of 
resources by officials called guandao--they grew angry and 
indignant. We need to understand that long-term groundswell in 
popular thought.
    Still--with all that said--I do agree with Merle that it 
tends to be true in Chinese history that disaffection gets 
channeled through or captured by an intellectual, or a quasi-
intellectual. This pattern is visible in many of the peasant 
revolts at the ends of earlier dynasties. Rebellions usually 
had a quasi-intellectual or religious leader. This, of course, 
is one reason why Falun Gong looks so frightening to the 
current regime: the spark that a charismatic leader provides 
can be important.
    Mr. Hand. Thank you.
    Mr. Foarde. Let me go on and recognize our friend and 
colleague Kate Kaup, who is with us as a special advisor here 
during 2005 on her sabbatical year from her professorship at 
Furman University in Greenville, SC. Kate, please.
    Ms. Kaup. Thank you. And thank you to all the panelists for 
coming, and for your interesting comments.
    I would like to pick up the discussion of the role of the 
peasantry and the workers that both Dr. Goldman and Dr. Link 
mentioned. Several political theorists have noted the 
contribution of the middle class in democratic transitions 
outside of Asia. Bruce Dickson and other China specialists have 
discussed the role of the middle class in China as being 
somewhat unique, however. Will you speak a bit about whether or 
not there are any public intellectuals emerging from the 
entrepreneurial and middle classes?
    Ms. Goldman. Certainly, in Western history it was what we 
have called the bourgeoisie who made the revolution, and they 
became an independent middle class.
    I think one of the big differences in China is that there 
is a fast-growing middle class, getting very wealthy, but they 
are not independent. They do not have an independent status. 
They do not have the rule of law to help them maintain their 
independent status. Most important, they have been co-opted 
into the Party. The largest percentage of people going into the 
Party today are the new business people. That is what the 
``Three Represents'' of Jiang Zemin is all about.
    So like the literati who were co-opted into the 
establishment, this large middle class is being co-opted. 
However, the people I am talking about--members of the small 
entrepreneurs--are people who the Party will not take because 
of their past political activities. In other words, some people 
who were in the Democracy Wall movement and the Tiananmen 
demonstrations or demonstrations that Perry mentioned that are 
going on all over China. What do they do to make a living? They 
have gone into some kind of business, and it is not at a very 
high level.
    But whether they are engaged in private contracting, or 
whether they are in some kind of technology, they are willing 
to put money into some kind of political activity such as the 
China Democracy Party. Some of its members were on the fringes 
of the emerging middle class.
    So, I think where you are going to see the change in China 
coming, is from ordinary people, workers, peasants, as well as 
some of these intellectuals we talked about, and some of these 
marginal people in the middle class. It is not going to come 
from an independent bourgeoisie. I would like to think it 
would, but so far there is no evidence of that.
    Mr. Foarde. Would anyone else like to remark?
    Mr. Link. I agree with that.
    Mr. Hu. In China, what is happening is that it is very hard 
to come to a conclusion by a very simple process, predicting 
what is going to happen in China. It really depends on the big 
picture, on the environment in which these events happen. To 
put it very simply, the June 4th movement, in 1989, was a big 
watershed. Before the June 4th event, with the deepening of 
economic reforms, people were coming up with more and more 
demands for political reforms. However, after the June 4th 
event, the opposite became true. The more successful the 
economic reform was, the less demand there was for political 
reform. The same thing can be said of the intellectuals, as 
well as of the middle class.
    Before the June 4th event, the status of intellectuals got 
higher and higher. With that ascending status, they had more 
and more political demands. However, after the June 4th event, 
some of these people got well-to-do and some of these people 
got better treatment from the authorities. With that, they had 
fewer and fewer political demands.
    Ms. Goldman. Can I just say, I really disagree with Hu Ping 
on this one. Before the 1980s, intellectuals were talking about 
political reforms within the Marxist-Leninist framework. In 
other words, they were humanistic Marxists, and in some ways 
they echoed what was going on in Eastern Europe. After June 
4th, Marxism-Leninism, as a motivating ideology, I believe, 
became bankrupt. So for the first time, intellectuals are 
beginning to contemplate another political system.
    What is unusual is that they use Marx to do this. They do 
it very cleverly. Marx, after all, talked about, when you have 
a change in the substructure then you have to have a change in 
your superstructure. So, obviously as China moves to a market 
economy, it must also move to a different political structure. 
They are talking about systems of checks and balances and some 
are talking about an opposition political party. The ones who 
are talking about political reform are asking for much more 
radical reforms than they were in the 1980s.
    Mr. Foarde. Thank you. Useful.
    Let me recognize Susan Roosevelt Weld, who is our general 
counsel on the Commission staff, for another round of 
questions. Susan.
    Ms. Weld. My first question is quite simple. It is whether 
Wen Jiabao has any influence on Hu Jintao in the tenor of the 
leadership's attitude toward intellectuals. Just after the two 
came into power we saw, on May 4, at a speech on the campus of 
Qinghua University, Wen Jiabao calling on the ideals of the May 
4th movement, and saying China should push forward with them. 
Is there anything you could tell us about that?
    Ms. Goldman. Let me put it this way. I think there was 
great anticipation that a younger generation of leaders would 
be more liberal and more open. Initially, it seemed that way, 
especially because they were interested in dealing with the 
growing inequalities, especially in the countryside. We thought 
that they were going to be a much more receptive, or certainly 
flexible kind of leadership. But in some ways--and this comes 
from the people I have talked to in China--they say it is much 
more repressive today than it was in the later years of Jiang 
Zemin.
    Even a famous political scientist--I mentioned him in my 
statement, Liu Junning, who was thrown out of the Chinese 
Academy of Social Sciences by Jiang Zemin personally, said he 
could say more, and he could do more under Jiang Zemin than he 
can today. He is the one whose Web site is being closed down 
constantly.
    I will give you another example of increasing repression of 
public intellectuals. The leadership says they are concerned 
about the increasing inequalities among the peasants. Yet, when 
a survey of the Chinese peasants, written by a couple based on 
their work in Anhui province, came out describing the 
inequalities and showing what caused them, China's new leaders 
banned the book the next month.
    Unless the leadership approves, public intellectuals cannot 
express their own criticisms. And if they do it is likely they 
will be repressed. If it is not a designated representative, an 
intellectual that represents the leadership, then they crack 
down. So, I see this as a much more repressive regime than the 
later years of Jiang Zemin.
    Because Hu Jintao came out of the China Youth League, which 
was always considered to be the center for more liberal 
political views, such as those of Hu Yaobang, we expected more 
of the new leadership .
    Mr. Foarde. Do either of the other panelists want to 
address that question?
    Mr. Hu. Well, talking about Hu Jintao and Wen Jiaobao's 
concerns for the disadvantaged groups, one example I would like 
to cite here is the attention they are paying to ``xinfang,'' 
which means to appeal to a higher authority with your concerns.
    Now, as a result of the reforms over the years, there 
emerged a lot of disadvantaged groups who find themselves in 
difficulty. They find it necessary to cut across several layers 
and appeal to higher authorities with their concerns.
    On the other hand, since Hu and Wen took power, they have 
been saying that they are close to the people. That, in itself, 
kind of encouraged these ``letters and visits.'' But, as a 
matter of fact, both of them know very well that this method of 
appealing to the higher authorities, cutting across several 
layers of authority, by doing this, nothing can be resolved. It 
does not really help at all.
    Of course, both of them know very well that a democratic 
system would very easily take care of issues like this. Either 
you have a very independent media or you have an independent 
judiciary system, and all these problems would be taken care of 
automatically. Of course, they reject the adoption of 
democracy, they reject the emergence of an independent media, 
an independent judiciary system. Instead, they do it with what 
is in place. That is why the whole situation remains the same.
    Mr. Foarde. Thank you very much.
    Let me now recognize my friend and colleague, Carl Minzner, 
who is a senior counsel with the Commission staff. Carl.
    Mr. Minzner. Thank you very much, John. Thanks to all of 
our participants for coming here today.
    I want to address the portrayal in the American or Western 
media that all Chinese public intellectuals are cut from the 
same cloth; that they are all promoting democracy, that they 
are all promoting limited government. I want to ask the 
question, is that true? Is that an accurate portrayal? To what 
extent are public intellectuals in China taking up the flag of 
nationalism, such as with the book, ``China Can Say No,'' 
espousing policies that might be more hard line than government 
policies? That would be the first question.
    The second question is, is there a difference in treatment 
by the Chinese government of these intellectuals vis-a-vis 
those who are promoting democracy and limited government?
    Ms. Goldman. There is certainly much greater intellectual 
pluralism today in China than there was under Mao, and in fact, 
more even than there was in the 1980s. There is, I think, also 
an increase in nationalist feeling. I have not yet been able to 
pinpoint it in the intellectual community and I have not seen 
any recent works on that. But that certainly is a rising 
source.
    The more nationalist views appear to be coming from the 
younger generation. This is also true of what we call the ``new 
left.'' They want to go back to some of the ideals of the Mao 
era in the Great Leap Forward, and even in the Cultural 
Revolution. In other words, some form of collective ownership, 
some form of direct democracy. They give those as their two 
major examples.
    Of all the ideological groups, the one that the leadership 
has most directly repressed is the neo-Maoists. But they are 
dying out. The neo-Maoists wanted to go back to Mao before the 
Great Leap. This was something the leadership did not want to 
do. The next group that the leadership has repressed are the 
liberal intellectuals because they are calling for a change in 
the political system. They are losing their positions in the 
establishment. They have now become part of this non-
establishment group.
    The leadership has not yet turned against the new left nor 
the nationalists. Now, it could be that if some of these 
intellectuals, particularly the nationalists become too fervent 
and too jingoistic, they might crack down because jingoists 
would hurt the leadership in their relations with the outside 
world. Thus, so far the only intellectuals who have been 
criticized by the new leaders have been the liberals and neo-
Maoists.
    Mr. Link. I would say that we need to notice two things 
about independent thinking in China--and maybe anywhere. One is 
that, almost by definition, it exhibits variety. So what Merle 
sketches here about liberal intellectuals, about the more 
radical crypto-Maoists--and, of course, there are many shades 
in between--are all there.
    The other thing to say, though, is that from the current 
government's point of view, no independent political thinking 
is really welcome. The government does not like people to think 
differently from the way they are supposed to think--to put it 
very bluntly.
    So the government takes what you might call a pragmatic 
attitude toward this variety of opinion: it is ready to 
cooperate with those who express views that are supportive of 
or compatible with its own views--but will ignore or repress 
others. The question of the difference between the ``new left'' 
(xinzuopai) and the government is subtle, because sometimes the 
new left thinking coincides with and is useful to the 
government, but other times not. I do not think there is a 
fundamental trust there.
    And if you go all the way over to the ``China Can Say No'' 
people, then the confluence of what the Party wants and what 
intellectuals are saying is pretty complete. But in cases like 
that, one has to ask whether we are observing a ``natural 
confluence'' of opinion or a case of people who lack 
intellectual integrity saying what they calculate that the 
Party would like to hear. With ``China Can Say No'' or ``Behind 
the Demonization of China,'' certainly the latter is involved. 
The result is what one might call ersatz intellectual opinion.
    Mr. Hu. There are two things I would like to point out 
here. One, is before June 4th, it was very obvious that most of 
the intellectuals in China were for more freedom and democracy. 
Afterward, there appeared to be a division among the 
intellectuals in China. Now there is a group of intellectuals 
who have come out openly expressing their opposition to freedom 
and democracy. However, the impact that these intellectuals 
have on society, by and large, is very limited, the reason 
being very simple: they do not have a substitute for freedom 
and democracy. They do not have another choice to replace what 
they are opposed to. That is why, among intellectuals circles 
nowadays in China, a popular view is that democracy is a good 
thing for China, but China is not ready for it now. Of course, 
this is exactly what the Chinese leadership has been saying. 
The Chinese leadership would say, from time to time, that what 
they want is a ``socialist democracy,'' and what they do not 
want is Western democracy. However, if you follow up by asking, 
what is ``socialist democracy,'' they cannot explain 
themselves.
    Of course, sometimes they resort to this tactic by saying, 
``Well, the United States has been there for over 200 years and 
we are much younger in that respect,'' meaning that it would 
take them much longer to get into this developmental stage. 
What they do not want to discuss with you is whether concrete 
steps would be taken, what we should do as the first step, what 
we should do as the second step, and whether people can reach 
agreement on an over-arching principle regarding democracy. 
They are not willing to talk about all these issues. So on this 
very issue, they have taken a defensive approach.
    Mr. Foarde. Thank you. Public intellectuals are involved in 
nothing if they are not involved in expression. Our staff 
expert on freedom of expression issues is my friend and 
colleague, William Farris. William.
    Mr. Farris. I would like to ask two related questions. Mr. 
Link mentioned that people today are free to publish anything 
as long as they do not cross the line. I would be interested in 
hearing what the three of you think that line is. What is it 
that people cannot actually say?
    In a related matter, Mr. Hu mentioned the preventive 
measures and how important a role they play in preventing 
people from speaking freely and publishing freely. I would be 
interested to hear if any of you have any thoughts on the role 
of the General Administration of Press and Publication, and the 
Central Propaganda Department, in squelching public 
intellectuals' right to publish.
    Perhaps, Professor Link, you could maybe just expound a bit 
on what you think that line is, to start.
    Mr. Link. It is a very fuzzy line. I wrote a piece a few 
years ago called ``The Anaconda in the Chandelier,'' that shows 
how the line is intentionally made fuzzy. If the line between 
what is permitted and what is prohibited were clear, that would 
let people, whatever they said, know for sure either that ``I 
am safe'' or that ``I am risking something.'' But if I don't 
know exactly where the line is, I need to guess, and guessing 
turns me subtly into my own policeman--and in most cases 
pulling back even further than I would need to, just to ``be 
safe.'' From very early in the Communist movement--right from 
Yan'an times--it has been a standard ploy to keep the 
borderlines fuzzy.
    That said, though, in a nutshell, what is prohibited is 
anything that threatens the power of the regime, directly or 
indirectly. Directly, by saying that policy toward Taiwan is 
wrong, or that Hu Jintao or other top leaders are mistaken, and 
so on; indirectly, by saying something good about Falun Gong or 
famous political dissidents, because these are viewed as forces 
that could become rivals for power. One way or the other, the 
nub is always the question of whether the current regime can 
keep its grip on power. That is the principle that determines 
what you can and cannot say in public. But even then, it is 
fuzzy, because who you are, as Hu Ping said, and under what 
circumstances you are speaking, matters in a number of 
different ways as well. It is a very complex question.
    Mr. Foarde. Anyone else want to comment?
    Mr. Hu. Of course, this situation brings us back to the 
changes that China saw in 1989. In the aftermath of the June 
4th event, the Chinese people, whether they were in China or 
overseas, many of them burst out cursing the Communist Party of 
China. Of course, it was impossible for the Communist Party to 
have everybody un-say what they had said. So now their approach 
is, ``just say whatever you want, but do not say it in the 
open.''
    Another result of the June 4 event in 1989 is that even 
though people are still clear about what is right and what is 
wrong, they are not holding the government, the regime, to that 
standard any more. So, they kind of leave the government alone 
to do whatever it wants, whether it is right or wrong.
    The story of Zhao Ziyang is a case in point. No rules or 
regulations stipulated that he should have been under house 
arrest for that long a period of time. However, he was. After 
his death, while there were no rules and regulations 
prohibiting people from attending his funeral, the authorities 
simply said, ``If you attend, you will be in trouble.'' So, the 
authorities have really resorted to this undisguised method of 
controlling.
    In the past, when the authorities wanted to ban a book, 
they would go to all the trouble of letting people know what 
the contents of the book were about. The authorities would try 
to mobilize the masses to criticize the book in question. Now 
if the authorities want to ban a book, they do not really have 
to do any of that. The authorities would simply issue an order 
and the book is banned.
    Ms. Goldman. Let me just say something about that, if I 
could.
    Mr. Foarde. Please.
    Ms. Goldman. That is true, the book is banned. But one of 
the differences now even from the 1980s is that because China 
has moved to the market and, because there is more economic 
freedom, these books are banned, but they can still be bought 
on the black market, even in airports and on street corners. 
People continue to sell them.
    So the point is that they are daring in what they publish. 
The book will be banned, yet the book still circulates because 
the market situation is open and freer, and these ideas and 
these books are able to circulate. So, I am not as pessimistic 
as Hu Ping on this issue.
    Mr. Foarde. Thank you for that observation.
    Let me recognize my friend and colleague, Adam Bobrow, who 
is our senior counsel for commercial rule of law. Adam.
    Mr. Bobrow. That was, Professor Goldman, the perfect segue 
into the issues that we have been discussing in terms of the 
difference of opinion that the panelists have expressed about 
the effects of economic legal reform and how the kaifang gaige, 
the 
reform and opening up, have actually interacted with this 
movement for public intellectuals.
    I am going to ask a wide-open question, because I would 
just like to see the debate continue a little bit. That is, 
what has been the most direct effect of the dramatic economic, 
commercial, and legal changes on public intellectual in China? 
I would throw that open to the whole panel.
    Ms. Goldman. The Party emphasizes the rule of law. Of 
course, it is rule of law to carry on business. Yet, we have 
seen, in the 1990s, in particular, the emergence of some very 
brave defense lawyers who defend some of these people when they 
are brought to trial, and do it very effectively. Of course, 
they never win, but the point is that they are making a 
statement there. So that is another real change in that a group 
of lawyers now are willing to take on politically sensitive 
cases, even though they know they are going to get in trouble.
    Certainly, the opening to the outside world is also a major 
factor. Yu Jie, for example, certainly is a public 
intellectual. He travels abroad a couple of times a year. He 
gets new ideas. He gets his ideas discussed in China. He is 
able to function in China, even though he has been periodically 
detained, and he is under surveillance. The point is, these 
people are not locked away. They are not totally silenced. They 
do have contacts at home and abroad. So they are very brave 
people, there is no question about that. But the big difference 
is that they are not silent the way they were in the Mao era. 
Also, public intellectuals are more independent than they were 
in the 1980s.
    So my view is not as pessimistic as my colleagues. I really 
do see some positive changes coming out of this loosening up, 
opening up economically, and engagement with the outside world.
    Mr. Link. I would agree that opening up has had good 
effects, but would separate that from the question of whether 
the effects of more money-making have been uniformly good. To 
highlight a couple of the ways in which more money-making has 
had a deleterious effect on intellectuals speaking out in the 
public interest, I would go back to the first point I made in 
my presentation about the phenomenon of being ``bought off'' in 
the last 15 years.
    In 1988 and 1989, when the intellectuals were complaining 
so articulately, they still felt they suffered from the stigma 
of the ``stinking bottom'' of society (chou lao jiu). Their 
expression of discontent was couched as social idealism but was 
considerably fueled by self-advocacy.
    Deng Xiaoping and the Party, quite cleverly said, ``All 
right, here is some money, some status, some housing, some 
artistic freedom.'' In this case money--not by force but by 
inducement, has led people to be much less critical than they 
were before. In particular, in the field of creative 
literature, which I study professionally, I think the trend is 
pretty obvious. Creative writers were getting more and more 
deeply probing and reflective in the 1980s, but in the 1990s 
and after either went into fairly arcane kinds of a vanguard 
experimentalism or turned toward money-making by writing 
popular 
entertainment or by writing for television or film. The Chinese 
intellectual's ideal of loyal remonstrance, of speaking truth 
to power on behalf of the populace, has been hurt by the 
rampant make-money-quick atmosphere of the last 15 years.
    Can I make one last comment, and then sign off? In answer 
to William's question about the controls, there is one aspect 
of the complexity that I did not mention, and I really want to. 
It is, the public/private distinction. Of course, there are 
layers within this distinction. But what you can say in private 
and what you can say in public, as I am sure you know, varies 
immensely.
    A few years ago, I did a paper on the popular ``rhythmic 
sayings'' that abound within China's underground grapevine. 
They are wry sayings and, I believe, are created primarily by 
intellectuals. They are very blunt and hard-hitting, skewering 
Jiang Zemin, Hu Jintao, and virtually any top leader by name. 
They not only survive but travel all over China orally--a state 
office collects them to monitor popular opinion for the 
leaders.
    All this happens except: you cannot put them into print, or 
onto a broadcast, or recite them openly in a public place--if 
you do get a few into public media, they are bowdlerized. The 
public/private distinction is not absolute, it too admits a 
certain spectrum. But the two ends of the spectrum are very 
different.
    Mr. Hu. Of course, there is no question that China today is 
very different from China in the Mao era. There is room for the 
intellectuals in China to express their political opinions. 
What I want to emphasize here is the fact that this room will 
not be expanding as time goes. For instance, if we compare 
China with China 16 years ago in 1989, I do not think that room 
has expanded any.
    By the same token, if you asked Chinese dissidents, whether 
they are still in China or they are overseas, if you asked them 
their expectations for political reforms, for democratic 
reforms in China, I think their expectations are much, much 
lower than 10 years ago.
    Mr. Foarde. Thank you very much. Unfortunately, the time 
that we have available this morning for our conversation is 
gone. So, it is my duty, on behalf of the members of the 
Congressional-Executive Commission on China, to first thank our 
three panelists, Professor Goldman, Professor Link, and Mr. Hu, 
for coming and sharing your expertise with us this morning.
    Next, I would like to thank all of the members of the 
audience who came to attend today, and hope that we will see 
you next Monday, March 14, at 2 p.m. over on the House side for 
our roundtable on the new religious regulations, and that you 
will continue to follow our roundtables and hearings series 
this year for the Congressional-Executive Commission on China.
    Thank you all. We will adjourn this one for today.
    [Whereupon, at 11:41 a.m. the issues roundtable was 
concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Merle Goldman

                             march 10, 2005

  The Role of China's Public Intellectuals at the Start of the Twenty-
                             first Century

    ``Public intellectuals'' are not unique to Western civilization. 
Public intellectuals have played a role throughout Chinese history. It 
was the responsibility of the Confucian literati to criticize officials 
and even the Emperor when they diverged from the Confucian ideals of 
morality and fairness. Public intellectuals helped to bring about the 
end of the dynastic system and prepare the way for the 1911 revolution. 
Sun Yatsen personified a public intellectual. Even though the 
Kuomintang government of Chiang Kai-shek (1927-1949) attempted to 
stifle criticism and dissent, it was too weak to silence the public 
intellectuals, who continued to criticize repressive officials and 
policies and advocate political reforms. With exception of during the 
Hundred Flowers period (1956-June 1957) and a short time in the early 
1960s, it was only during the era of Mao Zedong (1949-76) that public 
intellectuals were silenced and unable to play their traditional role. 
Of course, one major difference between the West and China is that 
during the dynastic, Kuomintang, and Mao Zedong eras there were no laws 
to protect public intellectuals when what they said displeased the 
leadership, who could silence them with relative impunity.
    In the post-Mao period, beginning soon after Mao's death in 1976, 
during the era of Deng Xiaoping (1978-97), there were also no laws to 
protect political and civil rights. Nevertheless, virtually all the 
intellectuals whom Mao had persecuted were rehabilitated and most found 
positions in the political and intellectual establishment. The public 
space for political discourse opened up in the media, books, 
universities, and research centers. Yet, even though a number of the 
rehabilitated intellectuals became members of the intellectual networks 
of party general secretary Hu Yaobang (1980-1986) and his successor, 
Zhao Ziyang (1987-89), when these intellectuals called for reform of 
the Communist party-state, they were purged once again. But unlike in 
the Mao era, though they were silenced for a while, China's move to the 
market made it possible for them to make a living, speak out, and 
publish on political issues by means of the new communications 
technologies, private publishing, and contact with the foreign media, 
such as VOA, BBC and Radio Free Asia, which would then beam back their 
views into China. For example, though the prominent political scientist 
Liu Junning was purged in 2000 from the Institute of Political Science 
of the Chinese Academy of Social Sciences for having criticized party 
secretary Jiang Zemin (1989-2002) for demanding that the Nation rally 
around his leadership, Liu was not jailed and completely silenced. He 
was able to get his ideas discussed by setting up his own website and 
as a free-lance writer, often publishing under pseudonyms.
    When the fourth generation of leaders, led by Hu Jintao came to 
power in 2002-2004, it appeared that they would continue the opening up 
of public space for political discourse, though circumscribed within 
certain limits, as we see in the case of Liu Junning. But that has not 
proven to be the case. In fact, there has been a contraction of public 
space for political discourse since Jiang Zemin announced he would step 
down from his last position as head of the state military commission in 
the fall 2004 and Hu gained full power over the government. The Hu 
leadership has cracked down on a number of people who use the Internet 
or publish their own websites to discuss political issues. A number of 
cyber-dissidents have been imprisoned as a warning to others as to how 
far they can go in discussing political reforms on the Internet. 
Independent intellectuals who speak out on controversial issues have 
been briefly detained as well. For example, the military doctor, Jiang 
Yanyong, who had countered the party's assertion in 2003 that the SARS 
epidemic had been brought under control, was detained and then put 
under surveillance when in 2004 he called on the party to reassess the 
1989 Tiananmen demonstrations as a ``patriotic'' movement.
    Ironically, the Hu Jintao crackdown coincided with the publication 
of a list of ``Top Fifty Public Intellectuals'' in September 2004 in 
the Southern People's Weekly (Nanfang renwu zhoukan), connected to the 
Guangzhou Southern Daily media group. With China's move to the market, 
most of China's media were no longer funded by the state and were 
forced to be self-financing. One result has been a more daring and 
interesting media in an effort to gain readership and survive 
financially. The Guangzhou Southern Daily media group is one of the 
most daring. In an accompanying commentary, the Weekly praised public 
intellectuals, pointing out that ``this is the time when China is 
facing the most problems in its unprecedented transformation, and when 
it most needs public intellectuals to be on the scene and to speak 
out.'' \1\ Although the list included intellectuals in a variety of 
professions--writers, artists, film directors, cartoonists, lawyers, 
environmentalists, and a number of overseas Chinese intellectuals--the 
list was dominated by intellectuals who in the 1990s had called for 
political reforms, free speech and association and greater political 
participation.
---------------------------------------------------------------------------
    \1\ ``Under Fire Again, Intellectuals in China,'' The Economist, 
Dec 11, 2004.
---------------------------------------------------------------------------
    On November 23, an article in the Shanghai Party Committee's hard-
line Liberation Daily (Jiefang Ribao) attacked the concept of ``public 
intellectuals,'' claiming that their ``independence . . . drives a 
wedge'' between the intellectuals and the party and the intellectuals 
and the masses.\2\ It insisted that China's intellectuals belonged to 
the working class, under the leadership of the party and therefore 
could not be independent. Moreover, it called the concept of ``public 
intellectuals'' a foreign import. The Liberation Daily article was then 
reprinted in the party's official newspaper, People's Daily, giving the 
criticism of public intellectuals the party's official imprimatur.
---------------------------------------------------------------------------
    \2\ David A. Kelly, ``The Importance of Being Public: Gagging 
China's Thinkers,'' China Review (London), Issue 31 (Winter 2004/2005), 
pp. 28-37.
---------------------------------------------------------------------------
    Although the Hu Jintao leadership is much more concerned with the 
increasing inequalities spawned by China's economic reforms, and 
particularly with alleviating poverty in the countryside than Jiang 
Zemin, the Hu leadership has suppressed the very people, other than 
those they officially designate, who try to draw public attention to 
the growing inequalities and distress in the countryside. This can be 
seen in its treatment of A Survey of Chinese Peasants, written by Chen 
Guidi and Wu Chuntao and published in January 2004, based on interviews 
over several years with farmers in the poor province of Anhui.\3\ This 
husband and wife team, who were both born in the countryside and had 
spent their early years there, described the developers' seizure of the 
land of rural residents without providing adequate compensation, the 
imposition of unfair taxes by local officials, and the lack of recourse 
available to farmers to right these wrongs. Their vivid depiction of 
the increasingly impoverished lives of peasants was exactly what the 
new generation of leadership had declared it sought to alleviate. Most 
importantly, the survey revealed the official abuse of power, which the 
new leadership seeks to remedy because of fears it would undermine the 
party's hold on power. Yet, in February 2004, just one month after its 
publication, their book was banned. Nevertheless, because of China's 
market economy it continued to be sold on the black market and by 
private book-sellers.
---------------------------------------------------------------------------
    \3\ Chen Guidi and Chun Tao, Zhongguo nongmin diaocha (A Survey of 
Chinese Peasants) (Beijing: Renmin wenxue chubanshe, 2004).
---------------------------------------------------------------------------
    At the close of 2004, the party detained a number of well-known 
public intellectuals. In December, the writers Yu Jie and Liu Xiaobo, 
both typical examples of public intellectuals, were taken into custody, 
supposedly because their independent chapter of PEN had given an award 
to the writer Zhang Yihe for her memoir The Past is Not Like 
(Dissipating) Smoke about the party's 1957 Anti-rightist campaign 
against intellectuals. Ironically, even the Deng Xiaoping leadership 
had denounced the campaign in the 1980s. Though the book was banned, it 
too continued to be sold on streets corners and pirated copies 
continued to circulate. The political theorist Zhang Zuhua was likewise 
detained. All three were criticized for articles they had originally 
published in overseas journals and then had found their way back to 
China via the Internet. Although the three were later released, they 
remained under surveillance and served as a further warning to public 
intellectuals.
    Along with the crackdown on a number of well-known independent 
intellectuals and the banning of discussion of ``public 
intellectuals,'' the Hu Jintao government tightened controls over the 
media. Reports on the growing protests against corruption, abusive 
officials, and property confiscation as well as reports on peasant and 
worker demonstrations were banned from the media. Journalism professor, 
Jiao Guobiao, who on the Internet had criticized the repressive 
controls of the media by the Propaganda Department (now referred to as 
the Publicity Department) was no longer allowed to teach at Peking 
University. Another public intellectual Wang Yi, a law lecturer at 
Chengdu University, who called for a system of checks and balances, has 
also been barred from teaching. The journal Strategy and Management 
that had been an outlet for intellectuals of a liberal persuasion such 
as Liu Junning was closed down. The administrative editor in chief of 
the monthly China Reform magazine, Chen Min was briefly detained. Using 
the penname Xiao Shu, or Smiling Sichuanese, Chen had declared in one 
of his commentaries that a natural gas explosion in December 2003 in 
Chongqing that had killed several hundreds of people demonstrated a 
lack of concern for human lives.\4\ The China Reform magazine also 
published many articles on the plight of the peasants. Even the editor 
in chief of the China Youth Daily, the newspaper affiliated with Hu 
Jintao's China Youth League power base, which had been very aggressive 
in exposing official corruption, was detained.
---------------------------------------------------------------------------
    \4\ Hong Kong: AFP Dec. 22, 2004.
---------------------------------------------------------------------------
    Nevertheless, despite the crackdown on public intellectuals and the 
media, unlike during the Mao period when millions were harshly 
persecuted for the acts of a small number, in the post-Mao period 
persecution for political dissent has not reached far beyond the 
accused and their immediate associates. Moreover, though they might 
lose their jobs and may be briefly detained, they have been able to 
find jobs and outlets for their views in China's expanding market 
economy. Thus, unlike during the Mao era, they are not completely 
silenced. Some still try to function as citizens, either on their own 
or with others and they continue to express their political views in 
unofficial publications, on the Internet, and in increasingly organized 
petitions and protests. In addition, though their writings may be 
officially banned, they continue to be distributed over the Internet 
and sold on street corners.
    There were also differences between the public intellectuals in the 
1990s and at the start of the twenty-first century from the public 
intellectuals in the Hundred Flowers or even in the 1980s. It was not 
so much that the 1990s public intellectuals are imbued with a different 
political consciousness, but that they use different political 
strategies. Unlike their Marxist humanist predecessors of the 1980s and 
earlier,\5\ most public intellectuals in the 1990s came to believe that 
more had to be done than just educating the people ideologically in 
order to bring about political change. It is necessary to establish new 
institutions to make possible the practice of democracy. Moreover, 
whereas until the 1989 Tiananmen demonstrations, public intellectuals 
acted as an elite who did not join with other social classes in 
political actions, in the 1990s they began to join with workers and 
small business people in organized petition drives and political groups 
to try to bring about political change. Therefore, at the start of the 
twenty-first century there has been a qualitative change among public 
intellectuals, a willingness to join with other social groups in 
political actions, that may make them increasingly independent actors 
in China's struggles and may allow them to have a greater impact on 
China's political scene.
---------------------------------------------------------------------------
    \5\ Merle Goldman, Sowing the Seeds of Democracy in China 
(Cambridge: Harvard University Press, 1994).
---------------------------------------------------------------------------
    Clearly, it is in the U.S. interest that China move in the 
direction of political reform. Although the United States can bring 
pressure on China to release public intellectuals from detention and 
imprisonment, it is difficult for the United States to make China's 
political reform the central issue in the America's policy toward 
China. Not only is China becoming a power with considerable 
international economic and strategic clout, there are other interests 
in the U.S. relationship with China, such as prodding China to put more 
pressure on North Korea, reducing 
China's huge trade imbalance with the United States, and negotiating a 
peaceful resolution of the Taiwan issue. The United States can use 
external pressure to encourage China to live up to the two U.N. 
Covenants on Human Rights which it signed onto in 1997-98 and to have 
its National People's Congress (NPC) ratify the Covenant on Political 
and Civil Rights. (The NPC has already ratified the Covenant on 
Economic, Social and Cultural Rights.)
    A genuine transformation of China's Communist party-state into a 
democracy, however, can only be achieved by the Chinese themselves. 
Although China's public intellectuals are unable to speak freely, it is 
through their efforts in alliance with other social groups, that can 
bring pressure on the Chinese government to reform. One way to help 
those seeking political change in China is for the U.S. Government to 
criticize China's repression of public intellectuals. Since China's 
present leadership wants to be considered a responsible member of the 
international community, it is sensitive to U.S. and European criticism 
of its human rights abuses. It does not want to seen as a pariah in the 
international community. Therefore, while the United States cannot be a 
major actor, it can be a catalyst in the effort to democratize China's 
Communist party-state.
    * Merle Goldman is Professor of History, Emerita of Boston 
University and a member of the Fairbank Center for East Asian Research 
at Harvard University. Her forthcoming book is From Comrade To Citizen: 
The Struggle for Political Rights in China, published by Harvard 
University Press will, be out in fall 2005.
                                 ______
                                 

                     Prepared Statement of Hu Ping

                             march 10, 2005

                 What Does This New Crackdown Tell Us?

    Since Hu Jintao took office, the plight of the intellectuals in 
public life in China has not been bettered; in fact, it has worsened. 
In reality, the lack of improvement in and of itself is tantamount to 
worsening, because the same oppression becomes more onerous as time 
goes on, and the consequences of that oppression more and more severe.
    Not long ago, the Hu Jintao regime unleashed a new crackdown on 
intellectual circles. The authorities once more raised aloft the banner 
of ``anti-liberalization,'' and stridently criticized ``liberalized 
thought'' and ``public intellectuals.'' The Central Propaganda 
Department brought out a list of names and banned a number of liberal 
intellectuals who had a tiny foothold in the official media from making 
more statements. The Ministry also demanded that the media implement 
rigorous checks, as they ``may not report on premeditated bombings, 
riots, demonstrations or strikes.'' A batch of books was banned, and a 
number of Web sites were closed down. At the same time, the authorities 
also utilized administrative means and autocratic methods to persecute 
some liberal intellectuals. Some were discharged from their jobs, some 
had their houses searched and notes confiscated, some received very 
stern warnings, and others were arrested and sentenced. When Zhao 
Ziyang died, it was as though the CCP authorities were on their guard 
for all possible danger. They took all sorts of measures to strengthen 
their control, and many dissidents were subjected to house arrest, with 
others taken into custody. Those inside the system received harsh 
warnings: they were not to participate in any memorial event on pain of 
losing their posts. Moreover, we must not forget the world-renowned Dr. 
Jiang Yanyong, who fought against SARS. For no greater reason than the 
fact that the letter he wrote to the National People's Congress and the 
Chinese Political Consultative Conference last Spring asking for a 
rectification of names for the June 4th event was published overseas, 
he was kidnapped and held in custody, and continues under house arrest 
today.
    The facts demonstrate that Hu Jintao and his predecessor Jiang 
Zemin are cut from the same cloth. In 1991, Jiang Zemin quoted a 
literary reference from the ``Commentary of Zuo,'' a famous Classical 
Chinese work, while speaking privately to a visitor from Taiwan. The 
passage basically holds that in politics it is better to be fierce than 
lenient. Fire is fierce, and everyone who sees it is frightened and 
hides away. As a result, very few people are burned to death. Water 
seems to be gentle and weak, so many people do not respect it. They 
fool around in the water, and even more people end up drowning. (Later 
on, this exchange was published in the August, 1996 issue of ``The 
90s,'' a Hong Kong magazine.) The Chinese Communist leaders are deeply 
cognizant of the fact that their political power is entirely based on 
the fear of the masses. Consequently, if they are to preserve their own 
rule, they must keep the people in fear. That means they cannot seem 
warm or enlightened in front of the masses. If the people feel the 
authorities are kind or enlightened they will dare to speak out, saying 
things they would never have dared otherwise. The more they dare to 
speak out with demands they would not have dared offer otherwise, the 
greater the pressure and the challenges become facing the authorities. 
The authorities must invest a great deal of energy if they are to 
repress (if indeed they are able to do so). At the end, their image may 
be even more severely tarnished. Hu Jintao showed his true face of 
cruelty the moment major power was within his grasp. His primary goal 
was to maintain and consolidate the power of intimidation by force and 
the effect of fear that the autocratic Chinese government had enjoyed 
since ``June 4.'' By so doing, he would then nip any unrest in the bud. 
There was no need to use force or violate any taboos on killing. 
Everything Hu Jintao has done since taking office has been the cause of 
widespread disappointment in him on the part of the outside world. It 
has also given people the impression that he has not gone overboard in 
any way. However, in reality, that is precisely the effect he wished to 
achieve by implementing this sort of strategy.
    After Hu Jintao took office, he reiterated time and time again his 
concern for disadvantaged groups. Many people mistakenly thought that 
Hu would permit events that would safeguard the rights of these groups, 
but that simply wasn't the case. For example, Li Boguang, a PhD in law 
from Beijing, has helped peasants to guard their rights, always within 
the dictates of current law. Not long ago, he was detained by the local 
government on suspicion of fraud (he recently made bail and is 
currently awaiting trial). This proves that while it's not necessarily 
true that Hu Jintao's regime was not thinking of shrinking the huge 
disparity between rich and poor to some extent, of putting the brakes 
on corruption to some degree, and of improving the lot of disadvantaged 
groups a bit, they absolutely do not permit the people to initiate any 
open group action or to stand up to defend their own rights. The 
authorities can partially satisfy the material needs of the people, but 
the thing they fear most is that the people might thus obtain the 
ability to engage in independent group activity. Additionally, the 
authorities also refuse to implement a true rule of law, in which 
everyone is equal before the law. This is because they know full well 
that the existing allocation of wealth is based on a huge injustice 
that is essentially illegitimate. The gap between rich and poor in 
China is unique in that it is not a product of history or of the market 
but is mainly due to power. In China, the poverty of the poor exists in 
large part because the products of their labor have been appropriated 
by those in power. The wealth of the rich is in large measure due to 
their use of power to steal the prosperity created by others. The 
moment that the people are able to argue strongly based on law and 
rationality, the moment they have the ability to band together to make 
a stand, they will absolutely no longer be satisfied with a tad more 
aid to the unemployed or a small additional subsidy for the poor. They 
will first demand that the group of people who used power to first 
become rich turn over the property they plundered, and there may very 
well be a day of reckoning for privileged rich privatization that will 
threaten the autocratic government itself. Naturally, this is not the 
wish of the Hu Jintao regime. As a result, the so-called ``concern for 
the disadvantaged'' touted by Hu Jintao's regime is in reality no more 
than a desire to employ ``controlled oppression'' and to maintain 
``continued squeezing.''
    Yes, on the surface it seems that the intelligentsia are very 
active in today's China. On the Internet, even in the official media, 
discussion certain public issues is quite open and even quite lively. 
Some dissidents express themselves without fear, and nothing happens, 
they sit at home, quite well. But what I must bring to your attention 
is the principle being implemented by authorities in China today, that 
principle is ``all people are not equal before the law.'' When the 
authorities handle issues related to expression and speech, there is no 
single standard measure used. The standards vary by person, by time, 
and by place. When the authorities oppress the intellectuals, they 
often consider a multitude of factors, such as; do you have any 
position within the establishment? Are you known internationally? 
What's your social network of ``connections'' like? And so on. We 
cannot draw the conclusion based solely from the situation of a few 
well-known dissidents that freedom of speech in China has expanded 
greatly. Again, we cannot forget that the means the Chinese Communists 
use to squash freedom of speech have taken on many forms over the 
years. For example, during the Anti-Rightist movement only a handful of 
the over 500,000 Rightists were actually imprisoned and sentenced, some 
Rightists were fired from their jobs and sent to the countryside to do 
manual labor. Some were demoted, had their salaries cut, or were forced 
to move to other posts. Some Rightists were permitted to show their 
faces in the official media to say a word or two. The situation today 
is the same.
    At this point I should mention that when the outside world assesses 
the degree of freedom of speech in China, it quite often focuses on how 
many people have been arrested or imprisoned. Without a doubt, a 
shocking number of dissidents have been locked up in China, a number 
that puts China in first place in such matters. However, this is but 
one standard by which we assess the amount of freedom of expression and 
the plight of intellectuals in China. First I want to say that 
precisely 
because there is still no freedom of the press in China, the outside 
world does not have an accurate figure on the number of dissidents in 
prison there. The figures the world gets are usually greatly 
understated. Second, another point that must be made is that the number 
of dissidents in custody isn't really as important as it might seem at 
first blush. Nations that arrest smaller numbers of dissidents do not 
necessarily have a more serious lack of freedom of expression than 
nations that arrest many. At times, the situation may be quite the 
opposite. We all know that traditional autocratic governments use 
investigation and punishment after the act to control freedom of 
speech. When the media does not get government approval on articles or 
news it puts out, then the chances greatly increase that articles or 
news items not favored by the government will become known to the 
world. Moreover, it also greatly increases the difficulty the 
government faces in penalizing the articles or news items it does not 
like. This results in the government being unable to cover up its 
oppression and makes its evil deeds obvious. But Communist autocracy 
doesn't work this way. The Communist Party takes a preventative 
approach before anything even happens. The Communist Party government 
not only has its book and newspapers supervisory structures in place 
(such as propaganda offices at various levels), but also, quite simply, 
has a direct hold on all the media. Party faithful are sent out to lead 
the defense effort. This is tantamount to a double layer of insurance. 
Under these circumstances, opinions or news items that displease the 
Party have no chance of making it to the media. And there is no need to 
run out and lock up the occasional minnow that manages to elude the 
net. The only thing needed is to mobilize Party sanctions and 
administrative sanctions, which are generally enough to resolve the 
problem. Doubtless the advent of the Internet has made control more 
difficult, particularly when users can post articles on their own, and 
it's almost impossible to censor in advance. Accordingly, the Chinese 
government has established the largest network surveillance system in 
the world. On the one hand, screening programs search for ``sensitive'' 
words and phrases, while on the other hand the instant any writings 
with a ``dangerous bent'' are detected, they are immediately erased. If 
necessary, the poster of the content can be found and punished 
afterwards. As a result, in a country that undertakes this sort of 
rigorous before-the-fact preventive actions, the government has no need 
to lock up too many dissidents. In reality, of the dissidents the 
Chinese government has in prison at present, quite a few were brought 
in for issuing articles or placing news items either on the Internet or 
in the foreign media. This is a benefit accrued from today's high 
technology and from being opened up to the outside world. If it were 
not so, these people would not even have the opportunity to ``commit a 
crime,'' and the government would very likely catch fewer of them. If 
we liken the traditional model of autocracy and its treatment of free 
expression to killing people or butchering children, then the Communist 
autocracy's methods are not limited to killing people and slaughtering 
babies but also include abortion and contraception. The effects of this 
oppression are not only more severe and far-reaching; they are also 
more insidious and more apt to fool people.
    On the surface, the yardstick used as a measure for the control of 
free speech by the authorities is broader than before, with the 
standards not only looser than those of the Mao era but also as loose 
as or even looser than those of the 1980s. But this doesn't mean 
enlightenment on the part of the authorities. It should be said that it 
is a number of other factors that are creating this situation. First 
and foremost is the impact of the 1989 democracy movement. During that 
movement, tens of thousands of people took to the streets shouting ``We 
want democracy, we want freedom!'' The butchery of the June 4 incident 
caused the common people to be even more incensed. Throughout China, 
people of both high and low status began to curse the Communist Party 
in untold numbers. No matter what means the authorities adopt, they are 
unable to completely return the hearts of the people to their former 
cramped and limited space. As a result, the government was forced to 
turn a blind eye to many expressions of opinion that are outside the 
``norms.'' Second we have the breakdown of the international Communist 
fraternity and the bankruptcy of Communist ideology. This includes the 
economic reforms promoted by the authorities themselves, in which, 
theoretically, they overturned the golden rules of theory that they 
themselves had enshrined. This provided the opportunity for all sorts 
of other ideologies to have their moment in the sun. At the present 
stage, the Chinese Communist authorities are still working hard to put 
together a new ideology, doing their utmost to find a theme and 
striving in vain to once more unify thought. However, their efforts are 
falling short and they have been forced to turn to largely 
defensive principles. This means that in the current phase, when the 
Chinese Communist authorities are controlling speech, they are largely 
looking not at whether something that is said is in line with the 
official ideology, but rather thinking about whether it poses a direct 
challenge to the current regime. This provides relatively more space 
for other thought and speech. Also, with the June 4th massacre as their 
landmark, the Chinese Communist government has lost the traditional 
support of belief. It has been transformed into a rule of naked 
violence. Violent rule means negative indifference toward government by 
the people; it means widespread cynicism; and in today's China, the 
power of thought and speech to appeal lags far 
behind the force these carried in the 1980s. This has increased a 
certain type of immunity on the part of the authorities to resist 
criticism. Violence does not care much for people's criticism. That is 
because violence is forced upon people without the need for the consent 
of a third party. You yell about what you want, and I'll comply about 
what I like. What can you do to me? Simply put, the authorities have 
become even more shameless (``I'm a rogue, who should I fear?'') so the 
``degree of tolerance'' for dissidents has, on the contrary, increased. 
However, at the same time, the authorities have adopted a more 
straightforward means of implementing oppression than they previously 
had regarding speech they simply cannot tolerate. In the past, 
officials who toed the Party ideological line were all recognized by 
the entire Party as having theoretical authority (in more cases, the 
tone was personally set by the ``Great Leader''). It was said that only 
they could accurately discern what conforming speech was and what was 
not. At that time, if the authorities wanted to crack down on some type 
of opinion, they would always take care to cobble up some sort of 
reason, to show that they had a basis for their actions. Quite often 
the offending speech was trotted out and shown to everyone so that the 
masses could judge it and criticize it jointly. But now, today's 
guardians of ideology don't need to trouble themselves overly much. If 
they say ban, it's banned; if they say wipe it out, it's wiped out; and 
if they say ``arrest him,'' he's under arrest. They don't need to give 
any reason. Sometimes they don't even need to issue formal paperwork. 
It can all be done with a single phone call, avoiding all the other 
formalities. Today, the Chinese Communist authorities control over 
speech is in no way truly looser than it was in the past.
    Beijing Film Academy Professor Hao Jian once gave this explanation. 
He said, ``We definitely know when we can strike the table in anger and 
speak with the force of justice behind us. We also know when we have to 
stay quiet about things we are perfectly clear on and keep our lips 
sealed. We do something else that's even scarier, we go for the 
underbelly, picking the softest, easiest targets and making a great 
deal of noise for justice and truth, but in fact it is all a sham. We 
also know when to say what so that we can get right to the top for a 
nod of approval and what will enrage everyone. For myself, I've 
perfected this sort of calculation to a fine art. And it's already 
become a part of my subconscious.'' This statement can help us 
understand the extent to which pretense flourishes among the 
intellectuals of today's China.
    Long-term oppression produces very negative results. Up until the 
1990s, there were still quite a number of dissidents in China who dared 
to speak out that held high posts within the system. For example, some 
held posts in Party media organizations, higher research institutes or 
in famous universities. Some were even in leadership positions. They 
had more chances to speak out and faced less risk. As the years went 
on, there were constant purges, and fewer and fewer of this kind of 
person remained. What's more, the party authorities stepped up their 
control of the media, and liberal intellectuals all over felt their 
situation worsen. In these circumstances, dissenter activities still 
hold on tenaciously among the people, but it's very difficult for them 
to develop any further.
    In direct opposition to the early hopes of many Chinese and 
Westerners, the economic reforms and economic development in China have 
not put China on a pathway to freedom and democracy. On the contrary, 
reform and development have 
become the main reason the authorities use to cling to one-party rule 
and deny freedom and democracy. From Li Peng and Jiang Zemin to Hu 
Jintao and Wen Jiabao, leaders have taken China's successful economic 
development as their basis to justify the crackdown on June 4th as 
necessary and right. They use it to show that a one party autocracy is 
necessary and right. In reality, China's privatization reforms not only 
were not aimed at setting down a foundation for democratization; they 
were actually aimed at throwing up more obstacles to democracy. The 
privatization and reform in China, if the truth be told, was nothing 
more than officials using their power to misappropriate resources that 
originally belonged to all the people. This sort of privatization 
reduces the ``transaction cost'' to a minimum, making it far quicker 
and more effective than privatization accomplished with democratic 
participation. However, such reforms are necessarily of the type that 
can never be approved by the people. The great blocs who profit 
immediately from all this are those who are most in fear of democracy 
and most stoutly oppose it. That is because these officials know very 
well that if they open the door to free democracy, they will not only 
lose their monopoly on political power but also, very possibly, will be 
called out by the people on charges of economic corruption.
    In today's China, the Mao era is water under the bridge, and there 
is no going back. Even the ruling blocs themselves are not willing to 
go back to the days of Mao. China today must concern herself with 
something that seems even more old-fashioned, but which could be an 
even more persistent type of oppression: that of rule by people who 
believe in no ``ism'' but wield enormous power, and are determined to 
use every means at their disposal to preserve it.

                                 <all>

</pre></body></html>
